        Tennessee Valley Authority
        Office of the Inspector General




Report of Administrative Inquiry

ALLEGATION OF CONFLICT OF
INTEREST BY TVA BOARD CHAIRMAN –
WILLIAM (BILL) B. SANSOM
OIG FILE NO. 17A-15138




          TVA RESTRICTED INFORMATION
                                  EXECUTIVE SUMMARY
 Tennessee Valley Authority
Office of the Inspector General   ALLEGATION OF CONFLICT OF
                                  INTEREST BY TVA BOARD CHAIRMAN –
                                  WILLIAM (BILL) B. SANSOM
                                  OIG FILE NO. 17A-15138


                                  This investigation was initiated after an allegation was made at the
                                  April 18, 2013, TVA Board of Directors’ (Board) meeting that Board Chairman
                                  William (Bill) B. Sansom was in violation of a conflict of interest statute, the TVA
                                  Conflict of Interest Policy, and TVA’s nepotism policy. Specifically, a member of
                                  the public alleged Mr. Sansom held financial interests in companies which did
                                  business with TVA and that Mr. Sansom had a son-in-law who worked for TVA.

                                  Our investigation found the following:

                                         Board members are required to comply with both the conflict of interest
                                          statute found at Title 18, United States Code, § 208 (18 USC § 208) and
                                          the TVA Conflict of Interest Policy.

                                         18 USC § 208 prohibits a government official from participating
                                          “personally and substantially” in a “particular matter” in which he or she
                                          has a personal financial interest. There is no evidence that Mr. Sansom
                                          has taken action on a “particular matter” which affects his personal
                                          financial interest and, therefore, cannot be said to have a conflict of
                                          interest under this statute.

                                         The TVA Conflict of Interest Policy (see attached) defines a conflict as a
                                          Board member holding a financial interest in (1) a distributor, (2) an entity
                                          in the electricity business, or (3) an entity that might be adversely
                                          affected by the success of TVA’s electricity business. There is an
                                          exception for such holdings of $25,000 or less. A review of
                                          Mr. Sansom’s financial disclosure statement shows he has not reported
                                          a holding in any such company and is not in violation of the policy.

                                         The allegation that Mr. Sansom’s son-in-law works at TVA and the
                                          implication that this might violate TVA’s nepotism policy is untrue.
                                          Mr. Sansom’s son-in-law does not work for TVA, but for a local school
                                          system.

                                         Although the alleged conflicts of interest are not cognizable under law or
                                          policy, the TVA Conflict of Interest Policy allows the Board to address
                                          appearances of conflict to determine if the appearance is reasonably
                                          held and if any action should be taken. The investigation produced
                                          evidence relevant to the Board’s consideration of this allegation. For
                                          instance, the companies mentioned often did not do business with TVA
                                          or, if so, in only small amounts. The decisions to contract with these
                                          companies were made below Board level and did not involve
                                          Mr. Sansom.




                                                               i
 Tennessee Valley Authority
Office of the Inspector General




             August 5, 2013

             William D. Johnson, WT 7B-K

             ALLEGATION OF A CONFLICT OF
             INTEREST BY TVA BOARD CHAIRMAN –
             WILLIAM (BILL) B. SANSOM
             OIG FILE NO. 17A-15138



             We have completed our investigation of an allegation we received alleging TVA Board
             Chairman Bill Sansom had conflicts of interest. Our investigation found the following.


             BACKGROUND
             On April 18, 2013, Garry Morgan, a member of the public, spoke at the TVA quarterly Board
             meeting and made several allegations that Mr. Sansom had conflicts of interest involving his
             role as TVA Board Chairman and his private financial interests. Additionally, Mr. Morgan
             suggested the possibility Mr. Sansom was involved in nepotism. Specifically, Mr. Morgan
             alleged the following:

                      Mr. Sansom owned more than $25,000 in stock in a particular company and that this
                       was prohibited by the TVA Conflict of Interest Policy.

                      Mr. Sansom was a director at TVA while he was also a director at First Horizon (a
                       bank) and that TVA Health Savings Accounts were held by First Horizon.

                      Mr. Sansom worked for American Limestone Company until 1979 and may have
                       financial interests in the company and sucessor companies which could conflict with
                       his role at TVA.

                      Mr. Sansom owns stock in Astec Industries, which Mr. Morgan estimated to total
                       about $59,000 on April 16, 2013. Mr. Morgan further stated this amount exceeded
                       the $25,000 ownership limit in the TVA Conflict of Interest Policy.
William D. Johnson
Page 2
August 5, 2013



      Mr. Sansom owned shares in Martin Marietta Materials which Mr. Morgan estimated
       the value at $78,072.08. Mr. Morgan alleged this would “exceed the $25,000
       ownership interest limits established by the Tennessee Valley Authority’s Conflict of
       Interest Policy.” However, Mr. Morgan was unsure if Mr. Sansom still had an interest
       in Martin Marietta Materials. By pointing out that Martin Marietta Materials produced
       construction aggregates used in flue gas desulphurization, Mr. Morgan also raises
       the question of whether matters involving TVA scrubber projects at fossil plants could
       benefit Mr. Sansom personally.

      Mr. Sansom may have a relative who works for TVA as a material handler.

These allegations trigger analysis under the federal conflicts of interest statue 18 USC
§ 208, the TVA Conflict of Interest Policy, and the TVA nepotism policy. Additionally, there
is the question of whether Mr. Sansom had personal financial interests which create the
appearance of a conflict even though there is not, in fact, a conflict.


18 USC § 208
18 USC § 208(b) prohibits government officers or employees from participating “personally
and substantially” in their official capacity in a “particular matter” in which he or she has a
financial interest. To participate “personally and substantially” means the officer or
employee would have to take action which affected his or her financial interest.
Furthermore, the action must be about a specific subject matter involving specific parties
and not simply general interests. In fact, matters which are broad in scope may not require
an officer or employee be disqualifed from participation even though he or she might be
remotely affected by the matter. If such a particular matter arises which the official or
employee can affect by taking official action, then he or she is disqualifed from working on
that matter.

The conflict allegations levied by Mr. Morgan do not suggest any instance in which
Mr. Sansom has participated in a decision through the TVA Board that has had a direct and
predictable effect on his personal financial interests. The allegation presents the issue of
whether Mr. Sansom’s investment in Martin Marietta Materials might lead to his approval of
an action that would lead TVA to make purchases from that company. However, there is no
evidence Mr. Sansom has taken such an action and whether such a matter which directly
affects Martin Marietta Materials might arise in the future is speculative. If a matter came
before the Board that would directly affect Mr. Sansom’s financial interests he would have to
recuse himself from taking action. However, after interviewing and reviewing Mr. Sansom’s
financial holdings, there is no evidence he has voted or taken any action as a Board
member regarding a particular matter in which he held a personal financial interest.
William D. Johnson
Page 3
August 5, 2013



TVA Board members are aware of the need to refrain from voting on matters directly
affecting their financial interests and work with TVA ethics officials to avoid such conflicts.
Board members are required to keep ethics officials apprised of their financial interests and
the ethics officials review those interests in light of particular matters before the Board to
ensure members recuse themselves when necessary.


TVA CONFLICT OF INTEREST POLICY
The TVA Conflict of Interest Policy (as enacted by the TVA Board) imposes ethical duties on
TVA Board members in addition to those found in 18 USC § 208. The policy does not allow
Board members to own a financial interest in the following three types of investments:

   1. Distributors of TVA power;

   2. Entities involved in the wholesale or retail generation, transmission or sale of
      electricity; and

   3. Entities reasonably perceived to be likely to be adversely affected by TVA’s success
      as a producer or transmitter of electricity.

Under the policy, a financial interest does not include ownership of publicly traded
companies when valued at $25,000 or less. Thus, a Board member who held $25,000 or
less of publicly traded stock in one of the three types of investments listed above would not
be in violation of the policy.

None of the financial interests mentioned in the allegation fall within the three categories of
investments prohibited in the TVA Conflict of Interest Policy. First Horizon is a banking
company; American Limestone (in whatever form it may still exist) mines rock; Astec
manufactures equipment for paving roads, processing aggregate and drilling wells; and
Martin Marietta Materials produces construction aggregates. The allegation emphasizes
that Mr. Sansom may own more than $25,000 in First Horizon, Astec and Martin Marietta
Materials and therefore be in violation of the policy. However, because the policy only
applies to holdings in distributors, entities competing with TVA, and entities likely to be
adversely affected by TVA’s success, the $25,000 exception is irrelevant in this case.
William D. Johnson
Page 4
August 5, 2013




NEPOTISM
The allegation that Mr. Sansom’s son-in-law may be a TVA employee is of concern because
both federal law and TVA policy prohibit a TVA official from hiring a relative if the official may
exercise control over the relative hired. However, our investigation shows the TVA
employee alleged to be related to Mr. Sansom is not. The confusion occurred because
the TVA employee shares the same name as Mr. Sansom’s son-in-law. Mr. Sansom’s
son-in-law does not work for TVA but for a local school district.


APPEARANCE OF A CONFLICT
Title 5, Code of Federal Regulations, § 2635.502 (5 CFR § 2635.502) provides that if a
federal employee knows his or her involvement in a particular matter involving specific
parties might lead a reasonable person with knowledge of the relevant facts to question his
impartiality then the employee should refrain taking action on that matter unless the
employee has disclosed the facts to the agency designee and received permission.

While the responsibility of determining the reasonableness of the appearance of a conflict
under 5 CFR § 2635.502 rests with the federal employee and permission to participate in a
matter where there is the appearance of a conflict lies with the agency designee, members
of the the public form their own opinions based on their knowledge of the situation.
Accordingly, the public should consider the following facts when forming an opinion of
whether Mr. Sansom’s financial interests and his duties at TVA would lead a reasonable
person to believe there is an appearance of a conflict for any particular matter he has
participated in as Chairperson of the TVA Board.

   First Horizon National Corporation

      First Horizon National Corporation is the parent of First Tennessee Bank.
       Mr. Sansom served on the Board of Directors of First Horizon for a number of years
       before leaving in 2012.

      First Tennessee provides the TVA purchase card and pays TVA for doing so.

      First Horizon provided TVA with medical savings accounts for employees until 2010.
       TVA paid First Horizon a total of $6,300,828.60 on the contract.

      We found no evidence that Mr. Sansom voted on any matter involving TVA and First
       Horizon or First Tennessee.

   American Limestone

      Mr. Sansom was an employee of American Limestone until 1979.
William D. Johnson
Page 5
August 5, 2013



      Mr. Sansom states he has no ownership interest in American Limestone or any of its
       successor companies.

      We found no evidence Mr. Sansom participated as a Board member in any issue
       where American Limestone and TVA were parties.

   Astec Industries and Astec Mobile Screens, Inc.

      TVA’s only business with Astec Industries occurred in 2009 and was for $578.40.

      TVA contracted with Astec Mobile Screens in 2006 and paid the company
       $15,830.55.

      We found nothing suggesting Mr. Sansom participated on any issue directly involving
       these companies in TVA while he has served on the Board.

   Martin Marietta Materials

      TVA last did business with Martin Marietta Materials in 2006 in the amount of
       $5,380.75.

      During Mr. Sansom’s tenure on the TVA Board, there is no evidence he has
       participated in any matter in which TVA and Martin Marietta Materials were parties.


FINDINGS
The allegations that Mr. Sansom’s financial interests and his position as a TVA Board
member create a conflict of interest (or the appearance of a conflict) can be broken down
into four issues. Namely, (1) whether he has a conflict under federal law, (2) whether he
has a conflict under TVA policy, (3) whether he reasonably appears to have a conflict even if
there is no actual conflict, and (4) whether he has violated laws and policies which prohibit
nepotism at TVA.

There is no evidence Mr. Sansom has a conflict of interest under federal law as set forth at
18 USC § 208. The statute prohibits a federal government official or employee from
participating “personally and substantially” in a “particular matter” involving the government
and the personal financial interest. We found no facts to suggest Mr. Sansom participated
in such a matter.

The TVA Conflict of Interest Policy prohibits Board members from holding three types of
financial interests. Board members may not have holdings in distributors of TVA power,
entities engaged in the retail or wholesale generation, transmission or sale of electricity, or
entities which would be adversely affected by TVA’s success. Our investigation found
Mr. Sansom’s holdings did not include any such financial interests.
William D. Johnson
Page 6
August 5, 2013



The appearance of a conflict under the TVA Conflict of Interest Policy must be reasonable.
Deciding what is reasonable is ultimately an issue for the Board; however, our investigation
revealed evidence relevant to reasonableness. There was no evidence Mr. Sansom
participated as a Board member in any matter involving the companies cited, most of the
companies did very little business with TVA, and he did not have an ownership interest in
one company.

Regarding the nepotism allegation, the investigation found the person alleged to be
Mr. Sansom’s son-in-law and working at TVA was unrelated to Mr. Sansom.

This report has been designated “TVA Restricted” in accordance with TVA-SPP-12.02, TVA
Information Management Policy. Accordingly, it should not be disclosed further without the
prior approval of the Inspector General or his designee. In addition, no redacted version of
this report should be distributed without notification to the Inspector General of the
redactions that have been made.




John E. Brennan
Assistant Inspector General
  (Investigations)
ET 4C-K

WDW:MSW:KMM
Attachment
cc (Attachment):
     Peyton T. Hairston, Jr., WT 7B-K
     Ralph E. Rodgers, WT 6A-K
     OIG File No. 17A-15138
Attachment
Page 1 of 2
Attachment
Page 2 of 2
